App. 1
SUPREME COURT
STATE OF CONNECTICUT
PSC-190420

THE ESTATE OF JAMES E. FRY ET AL.
v.
ANGELO R LOBBRUZZO ET AL.
ORDER ON PETITION FOR
CERTIFICATION TO APPEAL
The defendant’s petition for certification to appeal
from the Appellate Court (AC 43479) is denied.
KELLER, J., did not participate in the consideration of
or the decision on this petition.
Barbara Murray, self-represented, in support of the
petition.
Decided September 29,2020
By the Court,

JsL
Carl D. Cicchetti
Assistant Clerk - Appellate

App. 2
Notice Sent: September 29, 2020
Petition Filed: March 11, 2020
Clerk, Superior Court, NWHCV196004840S
Hon. Walter M. Spader, JR.
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys’ Office
Counsel of Record

App. 6
APPELLATE COURT
STATE OF CONNECTICUT
AC 43479

THE ESTATE OF JAMES E FRY ET AL
v.
ANGELO P LOBBRUZZO ET AL
JANUARY 15, 2020
ORDER
THE MOTION OF THE DEFENDANT-APPEL­
LANT, FILED DECEMBER 17, 2019, FOR REVIEW,
HAVING BEEN PRESENTED TO THE COURT, IT IS
HEREBY ORDERED THAT REVIEW IS GRANTED,
BUT THE RELIEF REQUESTED THEREIN IS DE­
NIED.
BY THE COURT,

3L
CARL D. CICCHETTI
ASSISTANT CLERK-APPELLATE
NOTICE SENT: JANUARY 16, 2020
“HON. WALTER M. SPADER, JR.
COUNSEL OF RECORD
CLERK, SUPERIOR COURT, NWH-CV19-6004840-S
193286

App. 8
e-standards.pdf)4 section 51-193c of the Connecticut
General Statutes and Connecticut Practice Book Sec­
tion 4-4.

App. 5
APPELLATE COURT
STATE OF CONNECTICUT
AC 43479
THE ESTATE OF JAMES E. FRY ET AL.
v.
ANGELO P. LOBBRUZZO ET AL.
FEBRUARY 19, 2020
ORDER
THE MOTION OF THE DEFENDANT-APPEL­
LANTS, FILED JANUARY 29, 2020, FOR RECON­
SIDERATION, HAVING BEEN PRESENTED TO
THE COURT, IT IS HEREBY ORDERED DENIED.
BY THE COURT,

31CARL D. CICCHETTI
ASSISTANT CLERK-APPELLATE
NOTICE SENT: FEBRUARY 19, 2020
COUNSEL OF RECORD
CLERK, SUPERIOR COURT, NWHCV196004840S
HON. WALTER M. SPADER, JR.
193639

App. 3
DOCKET NO:
NWHCV196004840S

SUPERIOR COURT

THE ESTATE OF FRY,
JAMES EEtAl
V.
LOBBRUZZO, ANGELO P
EtAl

HOUSING SESSION
AT NORWALK
12/8/2020

ORDER
ORDER REGARDING:
12/04/2020 159.00 MOTION TO REARGUE/RECON­
SIDER
The foregoing, having been considered by the Court, is
hereby:
ORDER: DENIED
Short Calendar Results Automated Mailing (SCRAM)
Notice was sent on the underlying motion.
438579
Judge: WALTER MICHAEL SPADER JR
Processed by: Edmond OGarro
This document may be signed or verified electronically
and has the same validity and status as a document
with a physical (pen-to-paper) signature. For more in­
formation, see Section I.E. of the State of Connecticut
Superior Court E-Services Procedures and Technical

App. 4
Standards (https://jud.ct.gov/external/super/E-Services/
e-standards.pdf), section 51-193c of the Connecticut
General Statutes and Connecticut Practice Book Sec­
tion 4-4.

App. 7
DOCKET NO:
NWHCV196004840S

SUPERIOR COURT

THE ESTATE OF FRY,
JAMES EEtAl
V.
LOBBRUZZO, ANGELO P
EtAl

HOUSING SESSION
AT NORWALK
8/8/2019

ORDER
ORDER REGARDING:
7/03/2019 104.00 MOTION TO DISMISS PB 10-30
The foregoing, having been considered by the Court, is
hereby:
ORDER: DENIED
The motion to dismiss is denied on the record.
438579
Judge: WALTER MICHAEL SPADER JR
Processed by: Edmond OGarro
This document may be signed or verified electronically
and has the same validity and status as a document
with a physical (pen-to-paper) signature. For more in­
formation, see Section I.E. of the State of Connecticut
Superior Court E-Services Procedures and Technical
Standards (https://jud.ct.gov/extemal/super/E-Services/

